      Department of Homeland Security




     Costs Invoiced by the Omaha Airport Authority
       for Closed Circuit Television Cameras at
              Omaha Eppley Airfield Airport




             American Recovery and Reinvestment Act of 2009



OIG-12-121                                                    September 2012

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                             SEP 14 2012

MEMORANDUM FOR:             John P. Sanders
                            Assistant Administrator
                            Office of Security Capabilities
                            Transportation Security Administration

FROM:                       Anne L. Richards
                            Assistant Inspector General for Audits

SUBJECT:                    Costs Invoiced by the Omaha Airport Authority for Closed­
                            Circuit Television Cameras at Omaha Eppley Airfield Airport

Attached for your information is our final letter report, Costs Invoiced by the Omaha
Airport Authority for Closed­Circuit Television Cameras at Omaha Eppley Airfield Airport.
Since the report contains no recommendations to Transportation Security
Administration management, we did not solicit formal comments.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Roger LaRouche, Audit Director; Karl Gallagher,
Audit Manager; and Marisa Coccaro, Report Referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Background
   On February 17, 2009, Congress enacted the American Recovery and Reinvestment Act
   of 2009, as amended (Recovery Act) to preserve and create jobs, promote economic
   recovery, and invest in transportation, environmental protection, and other
   infrastructure that will provide long-term economic benefits. The Recovery Act
   appropriated $1 billion to the Transportation Security Administration (TSA) for
   “procurement and installation of checked baggage explosive detection systems and
   checkpoint explosives detection equipment….” According to TSA, $61,827,702 of that
   amount was awarded to 14 airport organizations for the advanced surveillance program.

   Under Other Transaction Agreement (OTA) No. HSTS04-09-H-REC309, as modified, TSA
   agreed to reimburse the Omaha Airport Authority (Airport Authority) for allowable,
   allocable, and reasonable costs up to $3,562,994 to support the design, installation, and
   operation of closed-circuit television cameras (CCTVs) at the Omaha Eppley Airfield
   Airport. Under the OTA, the Airport Authority was required to install CCTVs throughout
   the airport to monitor activities at various locations, including checkpoint, ticket
   counter, and gate areas, and TSA search tables.

   The OTA was signed on September 16, 2009, and specified a project period of 2 years.
   The OTA required the Airport Authority to submit invoices for reimbursement of project
   costs to TSA. Reimbursement for eligible project costs is based on the scope of the
   agreement and Office of Management and Budget (OMB) Circular A-87, Revised, Cost
   Principles for State, Local and Indian Tribal Governments. TSA accepted the CCTV as
   complete on December 9, 2011, with total invoiced costs of $3,562,994.

   The agreement also required the Airport Authority to comply with OMB Circular A-133,
   Revised, Audits of States, Local Governments, and Non­Profit Organizations, and
   Recovery Act provisions to submit quarterly recipient reports to the Federal
   Government; and pay prevailing wages as determined by the Secretary of Labor under
   40 U.S.C., Chapter 31, Subchapter IV.

   The objective of this audit was to determine whether costs invoiced by the Airport
   Authority are allowable, allocable, and reasonable according to the funding agreement
   and applicable Federal requirements.




www.oig.dhs.gov                                2                                      OIG-12-121
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Results of Audit
   We determined that invoiced costs of $3,562,994 for the CCTV design and installation
   were allowable, allocable, and reasonable. Allowable invoiced costs consisted of
   $3,323,425 for the contract to install the CCTV system, $239,227 for a consultant
   contract for design and construction oversight, and $342 for Airport Authority
   administrative costs for installation and testing. We also concluded that the Airport
   Authority complied with the requirements for submitting quarterly reports and paying
   prevailing wages.




www.oig.dhs.gov                               3                                    OIG-12-121
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



    Appendix A
    Objective, Scope, and Methodology
    The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
    established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
    to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
    special reports prepared as part of our oversight responsibilities to promote economy,
    efficiency, and effectiveness within the Department.

    The objective of this audit was to determine whether costs invoiced by the Airport
    Authority are allowable, allocable, and reasonable according to the funding agreement
    and applicable Federal requirements. Our audit covered invoiced costs of $3,562,994
    for the period September 16, 2009, through the final invoice dated September 26,
    2011. This project is completed and as such this amount represents the total invoiced
    and reimbursable.

    Our tests and procedures included the following:

             •	   Reviewing TSA project files, the OTA and modifications, the Recovery Act,
                  and TSA and OMB guidelines;
             •	   Interviewing TSA officials to gain an understanding of the project and
                  project management;
             •	   Examining the Airport Authority accounting records supporting amounts
                  invoiced;
             •	   Interviewing Airport Authority officials to obtain an understanding of
                  project management, accounting, procurement, and invoicing;
             •	   Inspecting the CCTV project; and
             •	   Reviewing the audit working papers of the certified public accounting firm
                  that performed the Single Audits of the Airport Authority for the fiscal
                  years ending December 31, 2010, and December 31, 2011.

    The Single Audits of the Airport Authority were performed by KPMG and included
    Recovery Act-funded CCTV project costs totaling $3,464,813 (97 percent of invoiced
    costs). The Single Audit reports classified the CCTV as a major program. The Single
    Audit reports did not identify any questionable costs or compliance issues related to
    the CCTV, or any deficiencies in internal controls that were considered material
    weaknesses that would affect the CCTV.

    We also tested Airport Authority records supporting costs invoiced to determine
    compliance with OMB Circular A-87, Revised, and with other terms and conditions of


www.oig.dhs.gov                                 4	                                     OIG-12-121
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


    the agreement. We considered Airport Authority internal controls over the
    administration of TSA funds in determining our audit procedures.

    We conducted this performance audit between March and August 2012, pursuant to
    the Inspector General Act of 1978, as amended, and according to generally accepted
    government auditing standards. Those standards require that we plan and perform the
    audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
    conclusions based on our audit objectives. We believe that the evidence obtained
    provides a reasonable basis for our findings and conclusions based upon our audit
    objectives.




www.oig.dhs.gov                               5                                    OIG-12-121
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



    Appendix B
    Report Distribution
    Department of Homeland Security

    Secretary
    Deputy Secretary
    Chief of Staff
    Deputy Chief of Staff
    General Counsel
    Executive Secretary
    Director, GAO/OIG Liaison Office
    Assistant Secretary for Office of Policy
    Assistant Secretary for Office of Public Affairs
    Assistant Secretary for Office of Legislative Affairs
    Acting Chief Privacy Officer
    Departmental Recovery Act Coordinator
    Acting General Manager, Checked Baggage Division/Program
     Manager, Electronic Baggage Screening Program, TSA
    Audit Liaison Official, TSA

    Office of Management and Budget

    Chief, Homeland Security Branch
    DHS OIG Budget Examiner

    Congress

    Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             6                               OIG-12-121
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
